TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Trends in Exempt Organizations Function
                          Enforcement Activities for
                           Fiscal Years 2001 – 2005



                                      September 22, 2006

                              Reference Number: 2006-10-157




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 22, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Exempt Organizations Function
                             Enforcement Activities for Fiscal Years 2001 – 2005
                             (Audit # 200610026)

 This report presents the results of our review of statistical data for the Exempt Organizations
 (EO) function’s enforcement activities in Fiscal Years (FY) 2001 – 2005. The overall objective
 of this review was to analyze relevant statistical data for trends.

 Impact on the Taxpayer
 In recent years, public concerns about exempt organizations’ operations and noncompliance have
 brought increased attention to the tax-exempt sector. In FY 2003, the EO function began
 initiating new processes to increase its presence in the tax-exempt community. While staffing
 applied to examinations remained stable during FYs 2001 – 2004, the number of completed
 examinations increased. In addition, assessment amounts for noncompliant organizations
 increased in all but 1 year since FY 2001. These actions served to increase the number of
 tax-exempt organizations that were brought back into compliance with the laws and regulations
 granting tax-exempt status.

 Synopsis
 Overall, EO function compliance activities have evolved, and they showed improvement during
 FYs 2001 – 2005. However, in FY 2005, the implementation of new programs and the need to
 train new staff resulted in a noticeable drop in the number of completed examinations. For
 example, while staffing applied to EO Examinations function (hereafter referred to as EO
 Examinations) activities remained stable in FYs 2001 – 2004, the number of completed
               Trends in Exempt Organizations Function Enforcement Activities
                                for Fiscal Years 2001 – 2005



examinations increased. There was a 15 percent decrease in closed examinations during
FY 2005. This decrease is a consequence of attrition and limited hiring authority over a period
of years, redirecting field examination personnel to train newly hired staff, and implementing
new initiatives for increasing the EO function’s presence.
The average amount of time needed to complete an
examination increased nearly 15 percent for the 5-year         The EO function improved its
period ending in FY 2005. The most noticeable change                  ability to identify
occurred during FYs 2004 – 2005 as EO Examinations              noncompliant    organizations,
                                                                   but some compliance
began conducting audits of more complex returns.                  indicators decreased in
Assessment amounts for noncompliant organizations             FY 2005 due to a redirection of
increased in all but 1 year since FY 2001. There was a                   resources.
noticeable upward trend during FY 2005 as the amount of
tax assessed on large and more complex organizations increased significantly over that assessed
in FY 2004.
However, fewer returns resulted in a tax change for these assessments. Overall, the percentage
of cases resulting in some type of tax change decreased during the early period of our review and
did so again in FY 2005, after increasing in FY 2004. During FY 2005, approximately
20 percent of FY 2005 closures were training returns, which historically have low change rates.
The quality of examinations completed by EO Examinations improved from the early periods of
our review, and Customer Satisfaction ratings remained stable.

Response
We made no recommendations in this report. However, key Internal Revenue Service
management officials reviewed it prior to issuance and agreed with the facts and conclusions
presented.
Copies of this report are also being sent to the Internal Revenue Service managers affected by
this report. Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura,
Acting Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                  2
                    Trends in Exempt Organizations Function Enforcement Activities
                                     for Fiscal Years 2001 – 2005




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Exempt Organizations Function Improved Its Ability to Identify
          Noncompliant Organizations, but Some Compliance Indicators
          Decreased in Fiscal Year 2005 Due to a Redirection of Resources .............Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
         Trends in Exempt Organizations Function Enforcement Activities
                          for Fiscal Years 2001 – 2005




                        Abbreviations

AIMS                 Audit Information Management System
EO                   Exempt Organizations
EOCU                 Exempt Organizations Compliance Unit
FTE                  Full-Time Equivalent
FY                   Fiscal Year
I.R.C.               Internal Revenue Code
IRS                  Internal Revenue Service
TE/GE                Tax Exempt and Government Entities
TEQMS                Tax Exempt Quality Measurement System
                     Trends in Exempt Organizations Function Enforcement Activities
                                      for Fiscal Years 2001 – 2005




                                       Background

The Exempt Organizations (EO) function of the Tax Exempt and Government Entities (TE/GE)
Division is responsible for ensuring charitable or other tax-exempt organizations are in
compliance with the Internal Revenue Code sections (I.R.C. §) and regulations that govern
organizations exempt from Federal income tax. The EO function has two primary programs for
ensuring compliance: the Determinations Program (reviewing requests from organizations
seeking tax-exempt status) and the Examinations Program (reviewing information about existing
organizations). In general, an organization that wants to be recognized as tax-exempt under
I.R.C. § 501(c)(3)1 must apply to the Internal Revenue Service (IRS) for a determination of its
status by completing an Application for Recognition of Exemption Under Section 501(c)(3) of
the Internal Revenue Code (Form 1023). The EO Examinations function (hereafter referred to as
EO Examinations) is responsible for identifying and reviewing potential noncompliance with the
I.R.C. by tax-exempt organizations.
The Returns of Organization Exempt From Income Tax (Form 990) of selected exempt
organizations are examined annually by the EO function to determine whether they meet various
requirements. The EO function can accept Forms 990 as filed, impose excise taxes for certain
types of violations, or revoke the exempt status if the violations are serious enough. In addition,
employment tax returns can be examined concurrently with Form 990 returns if warranted.
Employment tax examinations can result in additional assessments of tax to the exempt
organizations.
In recent years, there has been a significant growth in the number of entities recognized as
exempt from Federal income tax under the I.R.C. In Fiscal Year (FY) 2003, there were
1.6 million exempt organizations, compared to 1.1 million in FY 1993. However, there has been
a significant reduction in resources dedicated by the TE/GE Division to examinations of these
entities as a consequence of attrition and limited hiring authority over a period of years, resulting
in a sharp decline in examination coverage. Examinations fell from approximately 12,300 in
FY 1993 to 5,800 in FY 2004. However, during FY 2005, EO Examinations hired 76 additional
revenue agents to increase examination coverage.
Public concerns about organizations’ operations and compliance have brought increased
attention from the press and oversight bodies regarding the accuracy of EO function customer
account data and the declining level of enforcement activities across the IRS. In FY 2003, the
EO function began initiating new processes to increase its presence in the tax-exempt
community. Specifically, the entire Determinations Program was transferred from
EO Examinations to the EO Rulings and Agreements function in early FY 2003, enabling

1
    I.R.C. § 501(c)(3) (2006).
                                                                                              Page 1
                 Trends in Exempt Organizations Function Enforcement Activities
                                  for Fiscal Years 2001 – 2005



EO Examinations to focus primarily on examination activities. In addition, EO Examinations
began transitioning from a Coordinated Examination Program to a Team Examination Program.2
Further, the EO function established several new work groups within EO Examinations in
FY 2005 to continue its focus on tax compliance. Specifically, the EO function established the:
    •   Exempt Organizations Compliance Unit (EOCU) to address noncompliance using
        correspondence and telephone contacts and to enable EO function field examination
        personnel to devote more time to face-to-face customer contacts.
    •   Review of Operations Unit to complete compliance reviews of exempt organizations and
        determine whether organizations are operating in accordance with their exempt purposes
        and are current with their filing requirements. Organizations found to be noncompliant
        are selected for examination.
    •   Data Analysis Unit to use various databases and information to investigate emerging
        compliance trends for improving the identification and selection of source work for the
        EO function.
    •   Exempt Organizations Financial Investigations Unit to assist in the Federal Government’s
        effort to investigate and pursue instances of civil fraud and terrorism funding by
        charitable organizations.
This review was performed at the TE/GE Division Headquarters in Washington, D.C., during the
period July through August 2006. The audit was conducted in accordance with Government
Auditing Standards. However, we relied on information accumulated by the IRS in established
reports and the EO function’s management information system and did not verify its accuracy.
We also relied on data taken from prior Treasury Inspector General for Tax Administration
reports. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




2
 In FY 2004, the EO function completed its migration from the Coordinated Examination Program to the Team
Examination Program. While both Programs involve examinations of large organizations, the Team Examination
Program uses a more systemic (versus manual) approach to identify these large entities and make selections for
audit. In addition, under the Team Examination Program, EO function revenue agents are assigned to groups
dedicated exclusively to examinations of large organizations.
                                                                                                         Page 2
1
                   Trends in Exempt Organikations Function Enforcement Activities
                                    for Fiscal Years 2001 - 2005




                                    Resu/ts of Review

    The Exempt Organizations Function Improved Its Ability to ldentijr
    Noncompliant Organizations, but Some Compliance Indicators
    Decreased in Fiscal Year 2005 Due to a Redirection of Resources
    Overall, EO function compliance activities have evolved, and they showed improvement during
    FYs 2001 - 2005. However, in FY 2005, the implementation of new programs and the need to
    train new staff resulted in a noticeable drop in the number of completed examinations.
    For example, while staffing applied to EO Examinations activities remained stable in
    FYs 2001 - 2004, the number of completed examinations increased. There was a 15 percent
    decrease in closed examinations during FY 2005. This coincides with:
            Redirecting field examination personnel to train newly hired staff.
            Implementing new initiatives for increasing the EO function's presence.
    The average amount of time needed to complete an examination increased nearly 15 percent for
    the 5-year period ending in FY 2005. The most noticeable change occurred during FYs 2004
    and 2005 as EO Examinations began conducting audits of more complex returns.
    Assessment amounts for noncompliant organizations increased
                                               se in total assessment
                                                There was also a no
    FY 2005 as the amount of tax assessed on large and more complex organizations increased
    significantly over that assessed in FY 2004. However, fewer returns resulted in a tax change for
    these assessments. Overall, the percentage of cases resulting in some type of tax change
    decreased during the early period of our review and did so again in FY 2005, after increasing in
    FY 2004. While the change rate dropped in FY 2005, approximately 20 percent of FY 2005
    closures were training returns, which historically have low change rates.
    The quality of examinations completed by EO Examinations improved fi-om the early periods of
    our review. Customer Satisfaction ratings remained stable and indicated three areas for
    increased emphasis:
           Explaining the time needed to complete an audit.
           Providing simple and accurate explanations regarding the reasons for the adjustment(s).
           Providing a detailed explanation of the audit process, for customers as a whole.


                                                                                              Page 3
                 Trends in Exempt Organizations Function Enforcement Activities
                                  for Fiscal Years 2001 – 2005



The following sections of this report reflect the efforts of EO Examinations to enforce
compliance with the I.R.C. provisions related to exempt organizations. This includes analyses of
the EO function’s enforcement and staffing data for FYs 2001 – 2005 to identify trends in the
following areas:
    •   Resources applied to EO function enforcement. This is measured by the number of
        Full-Time Equivalents (FTE)3 applied to EO Examinations activities.
    •   Number of completed examinations.
    •   Time expended on examinations.
    •   Change rates. This is measured by the percentage of returns in which noncompliance is
        found and for which the organization is required to make corrections to bring itself into
        compliance with the law. Conversely, a no-change rate is the percentage of returns that
        were determined to be in compliance with the law and no change is proposed to the
        return.
    •   Dollars assessed as a result of examination.
    •   Examination quality. This is measured by the results of quarterly quality reviews of
        completed examinations by EO Examinations Special Review staff.
    •   Customer Satisfaction. This is measured by feedback from customers after their
        examinations have been completed, as captured by EO function Customer Satisfaction
        surveys.

Resources applied to EO Examinations activities increased in FY 2005, after
remaining stable since FY 2001
Data from the TE/GE Division Technical Time Reporting System4 showed the number of FTEs
applied to EO Examinations activities was relatively constant in FYs 2001 – 2004. As a result of
FY 2005 budget decisions, EO Examinations had hired 76 revenue agents through
September 30, 2005.
This follows several fiscal years during which EO Examinations staffing stayed at essentially the
same level. For example, in FYs 2001 and 2002, EO Examinations hired and trained new
revenue agents. However, due to budget constraints and a high rate of attrition, there was a
limited net increase in overall staffing between FYs 2001 and 2003. With continued high
attrition and an inability to hire, there was an overall decline in EO Examinations FTEs in


3
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year.
4
  The TE/GE Division Technical Time Report is used to gather information required by management at all levels for
time application by TE/GE Division personnel.
                                                                                                         Page 4
                          Trends in Exempt Organizations Function Enforcement Activities
                                           for Fiscal Years 2001 – 2005



FY 2004. Between FYs 2001 and 2004, the percentage of resources applied to the Examinations
Program steadily increased, from 29.6 percent in FY 2001 to more than 50 percent in FY 2004.
Figures 1 and 2 show the following, respectively:
       •    FTEs planned and expended on the EO function’s Direct Examination activities.5
       •    Total FTEs expended on all EO Examinations activities (Direct Examination time and
            overhead items such as management and training) and by the EO function overall.
           Figure 1: Total FTEs Planned and Expended on EO Examinations Direct
                           Examination Activities (FYs 2001 – 2004)
                    140
                                 136                                     138

                                                          133           138
                                                                                                 133

                                                          133
             FTEs




                    130
                                  131



                                                                                                   125

                    120
                              FY 2001                FY 2002            FY 2003                FY 2004

                                Total Planned Direct Examination Time   Total Actual Direct Examination Time

            Source: EO TECHNICAL TIME REPORT 14 for FYs 2001 – 2004. Due to issues related to
            implementation of a new management information system, FTE data were not available for FY 2005.




5
    Direct Examination activity – Time expended to conduct an audit (examination) of a return.
                                                                                                               Page 5
                     Trends in Exempt Organizations Function Enforcement Activities
                                      for Fiscal Years 2001 – 2005



  Figure 2: Total FTEs Expended on EO Examinations Activities and by the EO
                       Function Overall (FYs 2001 – 2004)
               600

                            564                437
                                                                346                  316
               400
        FTEs




               200
                            167                 158              164                  159


                0
                          FY 2001             FY 2002          FY 2003               FY 2004

                            EO Examinations FTEs Expended       Total EO Function FTEs Expended

        Source: EO TECHNICAL TIME REPORT 14 for FYs 2001 – 2004. Due to issues related to
        implementation of a new management information system, FTE data were not available for FY 2005.

The number of completed examinations increased overall in FYs 2001 – 2004 but
dropped nearly 15 percent in FY 2005
There are a variety of measures for gauging the impact of EO Examinations activities on
compliance. One primary measure is the number of examinations completed during a
fiscal year. As shown in Figure 3, the total number of closed examinations increased overall in
FYs 2001 – 2004 but dropped in FY 2005. Factors contributing to this decline include:
   •   The diversion of experienced revenue agents during the first quarter of FY 2005 to serve
       as job instructors for nearly 100 new employees.
   •   Field revenue agents expending their time on a variety of other nonexamination duties,
       including the need to redirect staff to higher priority work (classification of
       approximately 1,200 Disaster Relief returns and assisting the Joint Terrorism Task
       Force).




                                                                                                    Page 6
                                    Trends in Exempt Organizations Function Enforcement Activities
                                                     for Fiscal Years 2001 – 2005



             Figure 3: Total Number of Closed Examinations (FYs 2001 – 2005)

             6,000
                                                                                5,754              5,800


             5,500
                                                            5,278
                                          5,342
             5,000
                                                                                                                  4,953

             4,500
                                      FY 2001               FY 2002             FY 2003            FY 2004       FY 2005

                                                                    Total EO Function Returns Examined

           Source: Audit Information Management System (AIMS)6 Report 20 (FYs 2001 – 2005).

As shown in Figure 4, during FYs 2001 – 2004, there was an increase in the number of
examinations completed per FTE expended on Direct Examination case time.
          Figure 4: Number of Examinations Closed per Direct Examination FTE
                                  (FYs 2001 – 2004)

                                     50
                                                                                                                46
                 Closures Per FTE




                                                                                              42
                                                    41                   40
                                     40




                                     30
                                                  FY 2001             FY 2002             FY 2003             FY 2004

                                                             Returns Examined per FTE Expended on Case Time

             Sources: AIMS Report 20 (FYs 2001 – 2004), EO TECHNICAL TIME REPORT 14 for
             FYs 2001 – 2004. Due to issues related to implementation of a new management
             information system, FTE data were not available for FY 2005.

During the early part of FY 2005, EO function management recognized they would not meet
their goal for examination closures. To address this, EO function management made a workload

6
    The AIMS tracks the source, location, and status of each examination from start to finish.
                                                                                                                           Page 7
                       Trends in Exempt Organizations Function Enforcement Activities
                                        for Fiscal Years 2001 – 2005



shift within the EOCU to increase the number of contacts with exempt organizations. The
EOCU began operation in January 2004 to address noncompliance by using correspondence and
telephone contacts. Its primary goals are to reach and affect a greater number of exempt
organizations than would be possible through traditional audits.
During the first half of FY 2005, the EOCU contacted more than 18,000 organizations through a
combination of educational and compliance check7 mailings. These contacts were related to
issues such as unreported business income, filing of an incorrect form, bingo activities, and
excessive compensation. Due to the EOCU’s success in increasing coverage of exempt
organizations, the EO function made plans to enlarge the Unit from one group to three.
As shown in Figure 5 and the accompanying Table, more than one-half of all closures were
attributable to Casework.8 Overall, the types of cases shown in Figure 5 accounted for over
90 percent of all closed examinations during FYs 2001 – 2005.
                            Figure 5: Total Number of Closed Examinations,
                                 Key Program Areas (FYs 2001 – 2005)
                                   5,000

                                   4,000

                                   3,000
       Closed Examinations
                                   2,000

                                   1,000

                                       0
                                            FY 2001       FY 2002         FY 2003         FY 2004         FY 2005

      Casew ork                              3,033          2,180           3,875          4,157           2,276
      Team Examination Program (see Note)     511            680            464             764             625
      Gaming/Gambling                         637            625            459             347             380
      Compliance Projects                      0            1,359           194              72             567
      Training Cases                          139            247            127              97            1,025

    Source: AIMS Report 20 (FYs 2001 – 2005). Note: In FY 2004, the EO function completed its migration from the
    Coordinated Examination Program to the Team Examination Program.



7
  A compliance check is a contact with the customer that involves a review of filed information and tax returns of
the entity to determine whether the entity is adhering to record keeping and information reporting requirements. A
compliance check is not an examination, and the customer may legally choose not to participate in the compliance
check.
8
  Casework arises from known or potential noncompliance issues related to specific taxpayers (generally the result
of referrals from sources such as other IRS operating divisions, informants, or the media); returns selected as a result
of certain conditions, or a combination of conditions, being present on returns; or when IRS action is otherwise
necessary (e.g., when an organization submits a claim for refund, EO Examinations staff review the claim to
determine whether the refund is appropriate or additional information is needed).
                                                                                                                  Page 8
                   Trends in Exempt Organizations Function Enforcement Activities
                                    for Fiscal Years 2001 – 2005



                                                  Figure 5 Table
                                                           Percentage of Total Closures
                                Program Area
                                                                     FYs 2001 – 2005
                        Casework                                          57.2%
                        Team Examination Program                          11.2%
                        Gaming/Gambling                                    9.0%
                        Compliance Projects                                8.1%
                        Training Cases                                     6.0%
                       Source: AIMS Report 20 (FYs 2001 – 2005). The percentages do not
                       sum to 100 percent because these areas of emphasis account for most but
                       not all examinations closed in FYs 2001 – 2005. The percentage for each
                       program area was calculated using the total number of examinations
                       closed in FYs 2001 - 2005 (27,127, as shown in Figure 3).

The amount of time needed to complete an examination has been increasing
There are two measures for gauging time on examinations:
    •    Average time per case, which represents the average amount of time revenue agents
         devoted to completing examination cases.
    •    Cycle time, which is measured from the date a taxpayer is initially contacted to the date
         the examination case is closed on the AIMS.
As shown in Figure 6, the average time per case increased nearly 15 percent (from 46.2 hours to
53.0 hours per case) for the 5-year period ending in FY 2005. The most noticeable change
occurred during FYs 2004 and 2005. Reviews by EO function staff showed the increased time
per case was attributable to the following factors:
    •    FY 2004: As documented by the Hours Per Case study team, there were several potential
         reasons for these results including rising complexity of case work, changing priorities,
         and deficiencies in inventory management techniques.
    •    FY 2005: There was a transition to critical initiative returns which were generally more
         complex and time consuming than the mix of returns worked in prior years. There was
         also an expectation that average hours per return would further increase in FY 2006 due
         to a number of unagreed revocations of tax-exempt status in the Abusive Tax Avoidance
         Transaction Projects.9



9
 These Projects evaluate returns containing a potential Abusive Tax Avoidance Transaction, which is defined as a
specific tax transaction/scheme that reduces tax liability by taking a tax position that is not supported by tax law or
manipulates the law is a way that is not consistent with the intent of the law (tax evasion).
                                                                                                                Page 9
                      Trends in Exempt Organizations Function Enforcement Activities
                                       for Fiscal Years 2001 – 2005



                        Figure 6: Average Time per Case (FYs 2001 – 2005)
                 55
                                                                                                   53.0


                 50
                                          48.2
         Hours




                                                                                47.3
                          46.2

                 45
                                                               44.1

                 40
                         FY 2001         FY 2002          FY 2003             FY 2004             FY 2005

                                                   Average Time per Case

       Source: AIMS Report 20 (FYs 2001 – 2005).

Figure 7 shows average time per case for key programs, which represent the majority of total
closures during FYs 2001 – 2005 (see Table included with Figure 5). In general, during the later
part of the review period, overall time per case increased as more complex issues were being
addressed and there was a need for more contact with taxpayers. For example, average hours per
return for the Casework category increased from 35.0 to 39.0 between June 2004 and June 2005.
At the same time, the percentage of returns resulting in a change to tax increased. Another factor
contributing to the increase in average time per case was the time required to close employment
tax returns in the Team Examination Program. Employment tax return closures from the Team
Examination Program were closed at an average of 54.9 hours per return in FY 2005, compared
to 16.8 hours in FY 2003.
     Figure 7: Average Time per Case, Key Program Areas (FYs 2001 – 2005)
                              200

                              150

         Hours                100

                                 50

                                   0
                                       FY 2001        FY 2002         FY 2003           FY 2004             FY 2005

    Casew ork                           36.4            46.7           37.8              35.3                39.5
    Team Examination Program            182.0          126.7           143.4             132.0               152.8
    Gaming/Gambling                     16.3            10.0           16.8              18.5                25.0
    Compliance Projects - See Note                      32.3           55.7              61.0                51.0
    Training Cases                      29.6            40.4           39.0              46.3                34.5

 Source: AIMS Report 20 (FYs 2001 – 2005). Note: There were no cases for “Compliance Projects” in FY 2001.

                                                                                                                Page 10
                             Trends in Exempt Organizations Function Enforcement Activities
                                              for Fiscal Years 2001 – 2005



Figure 8 shows cycle time increased 34 calendar days (14 percent) during FYs 2001 – 2005. As
with average time per case data shown in Figures 6 and 7, the most noticeable increases occurred
during FYs 2004 and 2005. Reviews by EO function staff attributed these increases to the
following:
    •    FY 2004: Average cycle time is actually higher than expected. One potential cause is
         the improvement in the change rate, which affects the amount of time needed to
         complete an examination. Also, EO function management took actions to identify and
         reduce processing bottlenecks in the Examinations Program and Review groups that
         added days to the examination cycle.
    •    FY 2005: EO function staff expected cycle time to increase further in FY 2005 due to
         the emphasis on closing out the in-process inventory in preparation for concentrating
         resources on critical examination initiatives.
                                     Figure 8: Cycle Time (FYs 2001 – 2005)

                           300
                                                                                     283
           Calendar Days




                                                                                             273

                           250
                                  239          235



                                                                   218
                           200
                                 FY 2001     FY 2002            FY 2003           FY 2004   FY 2005

                                                     Actual Examination Cycle Time (Days)

        Sources: AIMS Report 60 for FYs 2001 – 2005.

The change rate declined in FY 2005 due to a significant increase in the
no-change rate for training cases
Another indicator of the Examinations Program’s impact is the percentage of cases resulting in
some type of tax change due to noncompliance with the I.R.C. Overall, the rate of change fell
during the early period of our review and did so again in FY 2005, after increasing in FY 2004.
Figure 9 shows the percentage of examinations resulting in either a change or no change in tax
over the past 5 fiscal years.




                                                                                                      Page 11
                           Trends in Exempt Organizations Function Enforcement Activities
                                            for Fiscal Years 2001 – 2005



                                  Figure 9: Change Rate (FYs 2001 – 2005)
                            80

                                  60.9                                   60.4
              Percentage




                            60
                                             53.8         51.1                        54.1

                                                          48.9
                                             46.2                                      45.9
                            40
                                  39.1                                       39.6


                            20
                                 FY 2001   FY 2002       FY 2003        FY 2004      FY 2005

                                                     Change      No Change

            Source: AIMS Report 20 (FYs 2001 – 2005).

The percentage of closed examinations resulting in a change to tax increased from 48.9 percent
in FY 2003 to 60.4 percent in FY 2004. While the change rate dropped in FY 2005,
approximately 20 percent of FY 2005 closures were training returns, which historically have low
change rates. Disregarding those returns, the change rate for FY 2005 would be 61.3 percent,
slightly higher than the FY 2004 change rate. The EO function’s FY 2006 Implementing
Guidelines10 show that use of more sophisticated methods contributed to selecting more
noncompliant cases for examination. One example cited was the new Data Analysis Unit’s use
of available databases combined with analyses of Form 990 line items to identify potential
noncompliant returns. EO function management also took steps to ensure closing codes were
revised to more accurately reflect how examinations were being closed.
In FYs 2002 and 2003, EO Examinations devoted resources to a market segmentation initiative.
In October 2004, the Director, EO, decided to redirect resources from this area into other areas.
For example, in FY 2005, the EO function began focusing on critical initiatives such as
antiterrorism, abusive tax avoidance transactions, credit counseling, and excess compensation.
In addition, there was a marked reduction in the number of examinations closed without change
for the “Casework” category, which accounted for nearly one-half of all closures in FY 2005.
Figure 10 provides the no-change rate for key Examinations Program areas during
FYs 2001 – 2005.




10
 The Implementing Guidelines show how the EO function plans to apply resources to programs that support its
major strategies and priorities for the upcoming fiscal year.
                                                                                                      Page 12
                      Trends in Exempt Organizations Function Enforcement Activities
                                       for Fiscal Years 2001 – 2005



         Figure 10: No-Change Rate, Key Program Areas (FYs 2001 – 2005)
                                80


                                60


          Percentage            40


                                20


                                 0
                                       FY 2001         FY 2002           FY 2003           FY 2004         FY 2005

     Casew ork                          48.9            43.6              55.1              43.9               37.0
     Team Examination Program           30.3            36.9              23.1              24.9               29.0
     Gaming/Gambling                    17.4             7.5              13.9               9.5               21.8
     Compliance Projects - See Note                     67.4              58.8              16.7               72.5
     Training Cases                     69.8            65.6              78.7              55.7               73.8

   Source: AIMS Report 20 (FYs 2001 – 2005). Note: There were no cases for “Compliance Projects” in
   FY 2001.

Assessment amounts for noncompliant organizations increased in all but 1 year
since FY 2001
Another indicator of the success of the Examinations Program is the amount assessed for the
noncompliance issues identified during examinations. Figures 11 and 12 show total additional
tax assessed during FYs 2001 – 2005, both in total and for key program areas.
           Figure 11: Total Additional Tax Assessments (FYs 2001 – 2005)
                      $200
                                                               $169.2

                      $150
           Millions




                      $100

                                                                                                      $48.6
                      $50
                              $38.2            $43.1
                                                                                   $28.6
                       $0
                             FY 2001       FY 2002             FY 2003           FY 2004             FY 2005
                                                        Total Additional Tax
                                                        A        d
        Source: AIMS Report 20 (FYs 2001 – 2005).


                                                                                                                      Page 13
i
                          Trends h Exempt Organizations Function Enforcement Activities
!
                                          for Fiscal Years 2001 - 2005

         .--

                                    Figure 12: Total Additional Tax Assessments,
                                        Key Program Areas (FYs 2001 - 2005)




                            M     2002


                            M     2001

                       Millions          $0

                                              FY 2001   FY 2002   FY 2003      FY 2004        FY 2005

       Casework                                 8.2      10.9       8.9          16.6           8.6
      Team Banination Rogram                   28.4      30.2      155.9         10.3           35.3
       GaningIGant~ling                         0.1       0.9       0.2          0.3            1.4
     a Conpliince Rojects - See k t e                     1 .O      3.5          0.2            2.8
      Training Cases                            0.0       0.0       0.0          0.0            0.1

    Source: AIMS Report 20 (FYs 2001 - 2005). Note: There were no casesfor "ComplianceProjects" in
    FY 2001.

    As shown in Figures 11 and 12, for FY 2003, the significant increase in total assessments was
    attributable to the Team Examination Program cases. For example, there was a substantial



    when the amount of tax assessed increased as compared to FYs 2001 - 2002 and FY 2004
    despite a lesser number of examinations. The increase was a result of selecting better cases for
    examination.

    The EO function reported improvement in the quality of examinations from the
    early periods of our review
    The Tax Exempt Quality Measurement System (TEQMS) is designed to measure the quality of
    the EO function's Examinations Program. The TEQMS measures the quality of examinations
    and provides a tool for management to identify achievements of the Examinations Program as
    well as opportunities for improvement.
    Overall, the quality of examinations conducted by EO Examinations improved and ranged from a
    low of 73 percent to a high of 89 percent over the past 4 fiscal years. The notable improvement
    in quality during FY 2003 was the beginning of an upward trend that continued through
                                                                                                      Page 14
                                  Trends in Exempt Organizations Function Enforcement Activities
                                                   for Fiscal Years 2001 – 2005



FY 2005. The EO Examinations Special Review staff issued quarterly reports with
comprehensive narratives detailing where revenue agents did well and where there was a need
for improvement.
Figures 13 and 14 show overall TEQMS results for FYs 2002 – 2005 as well as the three
standards having the lowest overall ratings.
                                      Figure 13: Examination Quality (FYs 2002 – 2005)

                                100
          Percentage Accurate




                                                                                                     89
                                                                                 85
                                                           81
                                80
                                          73



                                60
                                        FY 2002        FY 2003                 FY 2004             FY 2005

                                                      Overall EO Examinations Quality


       Source: TEQMS Reports (FYs 2002 – 2005). Note: There are no data shown for FY 2001 because
       data for that period were no longer available.

                                      Figure 14: Examination Quality (FYs 2002 – 2005)
                                               90


                                               80


      Percentage Accurate                      70


                                               60


                                               50
                                                    FY 2002            FY 2003           FY 2004             FY 2005

       Standard - Examination Planning                52                  52               74                  88
       Standard - Examination Scope                   64                  69               82                  82
       Standard - Workpapers and                      63                  75               80                  83
       Reports

Source: TEQMS Reports (FYs 2002 – 2005). Note: There are no data shown for FY 2001 because data for that
period were no longer available.




                                                                                                                    Page 15
                            Trends in Exempt Organizations Function Enforcement Activities
                                             for Fiscal Years 2001 – 2005



Customer Satisfaction ratings were consistent during the period of our review
Customer Satisfaction research is part of the IRS’ agency-wide initiative to monitor and improve
taxpayer satisfaction with services provided. For EO Examinations, this research is designed to
track Customer Satisfaction with the EO Examinations’ process over time, identify which
customer characteristics influence satisfaction ratings, and identify areas where improvements
will have the greatest impact on Customer Satisfaction.
Customer Satisfaction ratings for examinations were generally consistent from FY 2001 to
FY 2004, ranging from 5.78 to 5.91 on a 7-point scale (where ratings of 6 or 7 were designated
as satisfied customers and ratings of 1, 2, or 3 were designated as dissatisfied customers). The
overall satisfaction rating of 5.72 for FY 2005 was not significantly different from the ratings in
previous periods.
The survey categories having the highest scores were “Courtesy of Staff” and “Professionalism
of Staff,” while the “Time Spent on Audit” and “Explanation of Adjustments” categories were
rated lowest. Figure 15 shows overall Customer Satisfaction ratings for the past 5 fiscal years.
  Figure 15: Overall EO Examinations Customer Satisfaction (FYs 2001 – 2005)

                             7.00
                                      5.91      5.78           5.88            5.84      5.72
                             6.00

                             5.00
             Rating Score




                             4.00

                             3.00

                             2.00

                             1.00

                             0.00
                                    FY 2001   FY 2002       FY 2003          FY 2004      FY 2005

                                                 Customer Satisfaction Rating - Actual

           Source: Customer Satisfaction Surveys (FYs 2001 – 2005). These ratings are based on data
           gathered over a 3-month period in FY 2001 and over 6-month periods in FYs 2002 – 2005.

To increase customers’ overall satisfaction with EO Examinations, the vendor conducting the
survey suggested that improvement efforts focus on the following:
   •   Explaining thoroughly the amount of time entities will need to spend on their audits.
       This will let customers know what to expect and how to manage their time expectations
       accordingly. In addition, the IRS should ensure any necessary information requested
       from a customer is relevant to the case and requested all at once, if possible.

                                                                                                      Page 16
               Trends in Exempt Organizations Function Enforcement Activities
                                for Fiscal Years 2001 – 2005



   •   Providing simple and accurate explanations of the reasons for the adjustment(s) when
       working with customers who have adjustments made to their cases. “Explanation of
       Adjustments” is the top improvement priority for customers as a whole and the
       second-highest priority for satisfied customers.
   •   Working towards providing detailed explanations regarding what the audit process will
       entail for customers as a whole.
The above areas are consistent with data cited earlier in this report, which showed increases in
both the percentage of examinations resulting in a change and the amount of time needed to
complete an examination.




                                                                                           Page 17
                 Trends in Exempt Organizations Function Enforcement Activities
                                  for Fiscal Years 2001 – 2005



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to review relevant statistical data for the EO function’s
enforcement activities in FYs 2001 – 2005 and analyze the data for trends. To accomplish this
objective, we reviewed IRS data publications and EO Examinations function information as
shown below. We relied on information accumulated by the IRS in established reports and the
EO function’s management information system and did not verify its accuracy. We also relied
on data taken from prior Treasury Inspector General for Tax Administration reports.
Specifically, we:
I.      Identified areas of emphasis for the EO function’s enforcement activities during
        FYs 2001 – 2005 and how resources were allocated.
        A. Obtained EO function Work Plans and Program Guidance to identify the major
           strategies, operating priorities, goals, and objectives.
        B. Interviewed EO function management to identify what factors they used in
           determining these key program areas (e.g., expected high rate of noncompliance).
II.     Determined what factors EO function management used to gauge the overall success of
        key enforcement areas.
        A. Interviewed management to determine what criteria are used in determining the
           success of individual examinations and the overall Examinations Program.
        B. Determined what data management used to track these measures.
III.    Analyzed data relating to the EO function’s enforcement activities in FYs 2001 – 2005.
        A. Obtained the Employee Plans/Exempt Organizations Work Plans (Form 5440) to
           identify the total planned staff days for both the EO function overall and the EO
           Examinations Program.
        B. Obtained TE/GE Division Technical Time Reporting System1 data to determine the
           total time applied to EO function examination activities.
        C. Obtained Statistics of Income function data showing the total number of returns
           examined and associated results.



1
  The TE/GE Division Technical Time Report is used to gather information required by management at all levels for
time application by TE/GE Division personnel.
                                                                                                        Page 18
                     Trends in Exempt Organizations Function Enforcement Activities
                                      for Fiscal Years 2001 – 2005



           D. Obtained AIMS2 data to identify the total number of, source of, type of closure for,
              and time expended on examinations of EO function returns.
           E. Determined the extent of the productive and nonproductive trends for EO
              function-related returns.




2
    The AIMS tracks the source, location, and status of each examination from start to finish.
                                                                                                 Page 19
              Trends in Exempt Organizations Function Enforcement Activities
                               for Fiscal Years 2001 – 2005



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
Andrew J. Burns, Senior Auditor
Gregory W. Holdeman, Senior Auditor




                                                                                    Page 20
              Trends in Exempt Organizations Function Enforcement Activities
                               for Fiscal Years 2001 – 2005



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 21
